The e-Payroll Quicksilver Project:
      Status and Concerns
 Period Ending March 22, 2004




                       Report No. 23-04-010-13-001
                       Date Issued: March 31, 2004
U.S. Department of Labor                    Office of Inspector General
                                            Washington, DC. 20210




      March 31, 2004



      MEMORANDUM FOR:               SAMUEL T. MOK
                                    Chief Financial Officer



      FROM:                         ELLIOT P. LEWIS
                                    Assistant Inspector General
                                     for Audit

      SUBJECT:                      The e-Payroll Quicksilver Project: Status and Concerns
                                     Period Ending March 22, 2004
                                    Audit Report No. 23-04-010-13-001


      The attached report is submitted for your action. This report incorporates the Deputy
      Chief Financial Officer’s response to the draft report briefing and the auditor’s
      conclusion to the response. In addition, the Deputy CFO’s response is attached to this
      report in its entirety. We request a response to this report by April 23, because of the
      significance of the issues presented.

      In her response to the draft report, the Deputy CFO stated that the audit staff had not
      asked for information/documentation which has now been made available as part of the
      agency’s response to the draft report. The OIG and its contract auditor requested
      information on a number of occasions, the most recent of which was the potential
      notification of findings meeting that was discussed on March 12, 2004, and provided in
      advance of the meeting on March 9, 2004.

      From the information provided to the OIG in the OCFO’s response and discussions held
      at the briefing of the draft report on March 30, 2004, certain small changes were made to
      the attached briefing involving clarifications and changes of an editorial nature. In
      addition, this information was used to develop the following OIG conclusions and
      resolution determinations for the briefing’s recommendations:

      RECOMMENDATION 1 – Obtain a written confirmation from NFC that the conversion
      can be completed by September 30, 2004 for DOL. Insist on reviewing NFC project
      plans and maintain periodic discussions with NFC management to confirm continuous ly
      that NFC is on schedule to meet DOL’s deadline.




                         Working for America’s Workforce
       OCFO Response: The OCFO received February 11, 2004, written confirmation
       from NFC the conversion can be completed by September 30, 2004.

       OIG Conclusion: Based on the information provided to OIG, this
       recommendation is closed.

RECOMMENDATION 2 – Develop a detailed conversion plan that indicates the process
and milestones that ensures all payroll and retirement data validation will be completed
and how the conversion of the data to NFC will be accomplished.

       OCFO Response: The OCFO provided OIG an updated conversion plan and
       information related to the OPM Retirement Systems Modernization project.

       OIG Conclusion: The conversion plan provided to the OIG is still a draft;
       therefore, this recommendation is unresolved. To resolve this recommendation,
       the OCFO must finalize the e-Payroll conversion plan and provide the OIG the
       plan of action and target date the OCFO will accomplish this step.

RECOMMENDATION 3 - Brief the TRB on the status of the e-Payroll project on a
regularly scheduled basis to gain added insight and advice from knowledgeable and
experienced Department-wide IT managers.

       OCFO Response: The OCFO did not respond to this recommendation.

       OIG Conclusion: As a result of the OCFO not responding to this
       recommendation, this recommendation is unresolved. To resolve this
       recommendation, the OCFO needs to provide OIG with a description of how
       OCFO will involve the TRB and the timing of such involvement.

RECOMMENDATION 4 - In accordance with the DOL Guide to IT Capital Investment
Management (May 2000), commit to having the OCIO and TRB involved in the e-Payroll
project and take advantage of the OCIO’s authority to leverage DOL’s IT resources to
ensure project success.

       OCFO Response: The OCFO states the CIO has been and continues to be
       involved in the project. The OCFO states that the Deputy CIO is the CIO’s
       representative to the e-Payroll project status meetings with OMB and OPM and
       forwards the e-Payroll project business case to OMB. The OCFO states it will
       work with the CIO to assure each complies with statutes that govern their
       respective oversight roles. In addition, the OCFO is following DOL’s System
       Development and Life Cycle Methodology.

       OIG Conclusion: OIG acknowledges the OCFO is planning to involve the OCIO.
       This recommendation is unresolved. To resolve this recommendation, the
       OCFO needs to provide OIG with details on how the OCFO will involve the CIO
       and the timing of such involvement.
RECOMMENDATION 5 – Commit to developing an updated project migration budget
indicating expected costs of migration.

       OCFO Response: The OCFO developed in February 2004 a project budget as
       part of the analysis of the migration options.

       OIG Conclusion: Based on the information provided to OIG, this
       recommendation is unresolved. To resolve and close this recommendation, the
       OCFO needs to provide OIG a detailed project budget showing major cost
       activities, such as: contractors, experts, staff, non-CFO agencies, travel, etc.

RECOMMENDATION 6 – If these actions cannot be taken within a reasonable amount
of time, the DOL should reevaluate its ability to achieve the September 30, 2004
deadline.

       OCFO Response: The OCFO achieved the actions recommended by OIG and
       took many other important actions. In January 2004, data mapping began in the
       Department’s payroll system to the NFC system and was substantially completed
       in early February 2004.

       OIG Conclusion: This recommendation is unresolved. The OCFO believes it
       has achieved many of the actions recommended by OIG. While data mapping is a
       critical step towards migrating to NFC by the September 30, 2004 target date,
       there remain significant key milestones that must be met in the very near future.
       Without a finalized DOL conversion plan and the OCFO’s commitment as to how
       and when the TRB and OCIO will become involved in the effort, the project has
       added risk and could result in lost opportunities. To resolve this recommendation,
       the OIG will assess OCFO’s compliance with DOL’s SDLC policies and
       guidelines and follow up on the corrective actions of the OCFO in response to
       recommendations 1 through 5 above.

If you have any question concerning this audit report, please contact Keith Galayda,
Director, Office of Information Technology Audits, at 202-693-5259.

Attachment

cc: Patrick Pizzella
                              U.S. Department of Labor




United States Department of Labor
    Office of Inspector General
 The e-Payroll Quicksilver Project:
       Status and Concerns
       Period Ending March 22, 2004

                             Audit Report No. 23-04-010-13-001
                             Date: March 31, 2004
                                                             U.S. Department of Labor




The e-Payroll Quicksilver Project: Status and Concerns

  This audit was performed by Urbach Kahn & Werlin Advisors, Inc., under contract to the
  Office of Inspector General, and, by acceptance, it becomes a report of the Office of
  Inspector General.




                                            2
                                                           U.S. Department of Labor




Executive Summary
The following concerns were identified:

Lack of Preparedness of NFC including:
    –    Lack of equivalent technological capability at NFC
    –    Financial and time strain to build required NFC interfaces
    –    Lack of availability of NFC to exchange critical information
    –    Hard-set NFC deadline requirements
    –    NFC admission of possible deadline failure due to priority conflicts


Lack of Preparedness of DOL including:
    –    Delays in making conversion alternative decision
    –    A data validation process is needed prior to conversion
    –    Lack of detailed conversion plan




                                          3
                                                          U.S. Department of Labor




Executive Summary continued…
The following concerns were identified:

Project Management concerns including:
    –    Budget estimates for migration appear unreasonable
    –    Lack of user involvement in project development
    –    Limited involvement of the Office of the Chief Information Officer (OCIO) and
         the Technical Review Board (TRB)




                                         4
                                                 U.S. Department of Labor




Executive Summary continued…

 To ensure effective management of the project, including
 meeting the current deadline of September 30, 2004, we
 recommend the following must happen immediately:
  Recommendation 1 - Obtain written confirmation from NFC that the
      conversion can be completed by September 30, 2004, for DOL.
      Insist on reviewing NFC project plans and maintain periodic
      discussions with NFC management to confirm continuously that NFC
      is on schedule to meet DOL’s deadline.
  Recommendation 2 - Develop a detailed conversion plan that indicates the
      process and milestones that ensures all payroll and data validation
      will be completed and how the conversion of the data to NFC will be
      accomplished.
  Recommendation 3 - Brief the TRB on the status of the e-Payroll project
      on a regularly scheduled basis to gain added insight and advice from
      knowledgeable and experienced Department-wide IT managers.


                                  5
                                                        U.S. Department of Labor




Executive Summary continued…
 To ensure effective management of the project, including meeting
 the current deadline of September 30, 2004, we recommend the
 following must happen immediately:

  Recommendation 4 - In accordance with the DOL Guide to IT Capital Investment
       Management (May 2000), commit to having the OCIO and TRB involved in the
       e-Payroll project and take advantage of the OCIO’s authority to leverage
       DOL’s IT resources to ensure project success.

  Recommendation 5 - Commit to developing an updated project migration budget
       indicating expected costs of migration.

  Recommendation 6 - If these actions cannot be taken within a reasonable
       amount of time, the DOL should reevaluate its ability to achieve the
       September 30, 2004 deadline .




                                       6
                                                       U.S. Department of Labor




Executive Summary continued…
• Attached to this report is the Deputy CFO’s response in its entirety. As part of
  the CFO’s response, it was stated that the auditors had not requested certain
  documentation which has now been made available as part of the agency’s
  response. On the contrary, the OIG and its auditor requested the basic
  planning information through its data requests, through our notification of
  potential finding, and through a pre-briefing with the OCFO’s project team and
  official.




                                       7
                                     U.S. Department of Labor




Audit Objective


To determine whether the conversion and migration
effort of the Department’s Payroll functions are being
effectively managed to ensure the project will meet the
target date of September 30, 2004; as directed by the
President’s Management Agenda quicksilver project,
“e-Payroll: Payroll Processing Consolidation”




                          8
                                                                                 U.S. Department of Labor




Audit Scope
For this interim report, we audited the project management activities of the Office of the Chief Financial Officer
(OCFO) located in Washington, DC, and related supporting documentation that is being used to achieve a
September 30, 2004, implementation date for the e-Payroll conversion and migration project including:

      1.      the completeness of documentation required by DOL’s SDLCM or a SDLC methodology approved by the
              OCIO;
      2.      project management compliance with activities specified within the DOL SDLCM or another OCIO
              approved SDLC methodology;
      3.      project management involvement of DOL Business Sector decision making authorities and;
      4.      responsibilities and progress of any third party agencies involved with the conversion/migration.

This report is not based on an assessment of all management controls that could be considered as the audit progresses.

Compliance/noncompliance of any of the above will be reported using interim reports as well as an overall report at the
conclusion of the audit. This interim report is based on our work from February 6, 2004 to March 22, 2004.

The audit period for this engagement is January 1, 2004 – September 30, 2004




                                                          9
                                                                U.S. Department of Labor



Audit Methodology
We have:

• Assessed the activities and documentation developed for each SDLC phase

• Assessed project management activities during the course of preliminary system
  development

• Reviewed conversion and migration documentation developed during the decision making
  process

• Conducted interviews with key DOL personnel, including members of the OCFO, OASAM and
  AO groups

• Obtained and analyzed OCFO Fit-Gap reports

• Performed preliminary interviews and assessments of outside parties hired to provide
  resolution

• Adhered to the Government Auditing Standards outlined in GAO’s “Yellow Book”




                                               10
                                             U.S. Department of Labor




Reporting

This report is an interim report. As additional work is performed,
further interim reports could be developed during the audit
including our final report at the conclusion of the audit.




                                11
                                          U.S. Department of Labor




Condition

An aggressive timeline is being pursued for start-to-finish
implementation of the system given the preparedness of NFC and
DOL. The current deadline for completion is September 30, 2004.




                              12
                                                    U.S. Department of Labor



 Areas of Concern
Preparedness of NFC

• Lack of equivalent technological capability at NFC
   – NFC currently does not have system capabilities in place to allow for a
     “wholesale” migration of all DOL payroll and Human Resource functions
   – If DOL was required to transfer all of its current payroll and HR systems,
     including but not limited to the functionality of payroll, Time and
     Attendance and WebPARs, to NFC, functionality would be lost (i.e.,
     NFC cannot support the paperless process that DOL currently has in
     place)

• Financial and time strain to build required NFC interfaces
   – Since DOL has decided to migrate to NFC using a “Phased” approach,
     interfaces need to be built to communicate with NFC
   – Building these interfaces will require a commitment of time and
     resources that would be unnecessary if NFC maintained an equivalent
     technological capability to DOL


                                     13
                                                          U.S. Department of Labor



    Areas of Concern continued…
Preparedness of NFC

•   Lack of availability of NFC to exchange critical information
     – In the early project stages NFC did not readily make themselves available to
       discuss the development of a methodology for successful conversion/migration


•   Hard-set NFC deadline requirements
     – NFC has stated that a successful conversion of this magnitude requires
       approximately 6-9 months




                                         14
                                                            U.S. Department of Labor



    Areas of Concern continued…
Preparedness of NFC

•   NFC admission of possible deadline failure due to priority conflicts
     – According to the Risk Management Matrix there is a high probability that the
       following will occur:
         • “If there are other Federal or legislative mandates that are required to
            be implemented within the same timeframe and are competing for the
            same human resources within NFC, then the migration schedule may
            be delayed.”

     – A high probability is defined as “more likely to happen than not”

     – NFC’s Mitigation strategy for the above risk:
          • “Utilize a sound issue management process and treat new legislative or
            regulatory mandates as issues. If NFC and DOL cannot resolve an issue, then
            escalate the issue to OPM in accordance with the Issue Management Plan.”



                                           15
                                                             U.S. Department of Labor



Areas of Concern continued….
Preparedness of the Department of Labor

•   Delays in deciding on conversion options due to research of
    conversion/migration alternatives
     – Conversion alternatives were still being researched in early 2004 and a final
       Decision Paper was not signed until March 1, 2004
     – The extensive research of the alternatives was valuable to the project, nonetheless,
       it increased the risk to complete the project by September 30, 2004
     – While alternatives were being reviewed, the Department did proceed with data
       mapping efforts

•   An adequate data validation process is necessary prior to full
    conversion/migration
     – HR files must be reviewed for correctness prior to transfer
     – Current estimates are indicating that this data review and validation will cost
       approximately $2 million




                                            16
                                                          U.S. Department of Labor



Areas of Concern continued….
Preparedness of the Department of Labor

•   Delay in creating conversion plan due to delay in making final
    conversion decision
     – A detailed conversion plan has not been completed for the project
     – A consulting firm has been hired to research and develop the conversion plan
       along with assisting the conversion process and developing interfaces




                                         17
                                                                    U.S. Department of Labor



Project Management Concerns
• Budget Issues
   –   Based on information supplied by the Department: Office of the Assistant Secretary for
       Administration and Management, initial estimates for the payroll migration project was
       approximately $1.5 million. However, current project expenses include the following:
         • $1 million task order issued by OCFO to Deloitte for consulting
         • $455,000 still to be paid to NFC by DOL
         • $2 million data validation (estimation)
         • $400,000 to be paid by DOL for (I.C.A.M.S.) support
         • $3,855,000 is the total forecasted amount to this point with a possibility for further
           expenditures once the project is underway due to unforeseen circumstances
• Lack of user involvement
   –   Based on documentation obtained from the Administrative Office (AO) committee, early
       communication with the AO committee was not forthcoming. Multiple memos were sent by
       the AO group to the OCFO requesting more information.
   –   Current information provided to AOs is lacking detail and is not presented in a discussion
       format that allows for value-added decision making by the AO committee




                                                18
                                                               U.S. Department of Labor



Project Management Concerns continued…..
•   Limited involvement with Office of Chief Information Officer (OCIO)
    and the Technical Review Board (TRB)
     – To date, the OCIO has not been involved with any decision making aspects of
       the project
     – This project is a Threshold 3 initiative that requires involvement by both the
       OCIO and TRB:

            The DOL Guide to IT Capital Investment Management (May 2000) states the following
            as criteria for a Threshold 3 initiatives:
               – “Acquisition costs exceed $5m annually OR initiative impacts more than one DOL
                   agency, OR involves highly visible/sensitive systems, OR sets a new
                   technological direction, OR impacts a financial system.”




                                             19
                                                                 U.S. Department of Labor



    Possible negative results if not addressed
•    Increased risk of design errors in development remaining unresolved until late in the
     project. For example, by not spending a significant amount of time mapping out current
     DOL requirements, the final design may not work as needed due to an omission of certain
     finite details.

•    Time available for testing is decreased. For example, if the development phase for defining
     business processes is running very close to the deadline, less time will be available for
     testing multiple scenarios and situations for unique business processes. Even if
     comprehensive test plans are in place, as the time table approaches the deadline, testing of
     unique business processes may be dropped to meet the deadline if the basic payroll
     system is working.

•    Increased likelihood of inadequate control focus due to lack of adherence to a
     checkpointed SDLC methodology. If controls are not designed in the project plan, they are
     less likely to be implemented during the actual development phase due to a lack of time for
     consideration. For example, if it is decided not to design segregation of duties controls
     early in the process due to lack of time to consider user profiles and user trust levels, a
     system may be created having little or no controls regarding user access.

•    Increased likelihood that project will focus on minimum set of objectives needed to meet
     the deadline versus fully ensuring that all DOL objectives are met efficiently and cost
     effectively. For example, if the deadline is approaching and the system can only come on-
     line if only basic payroll services are utilized, then value-added services (i.e., Time and
     Attendance and other interfaces) may be bypassed just to allow the system to go-live as of
     September 30, 2004.


                                               20
                                                     U.S. Department of Labor



Recommendations
To ensure effective management of the project, including meeting
the current deadline of September 30, 2004, we recommend
immediate action on the following:

 Recommendation 1 - Obtain written confirmation from NFC that the conversion
   can be completed by September 30, 2004 for DOL. Insist on reviewing NFC
   project plans and maintain periodic discussions with NFC management to
   confirm continuously that NFC is on schedule to meet DOL’s deadline.

 Recommendation 2 - Develop a detailed conversion plan that indicates the
   process and milestones that ensures all payroll and retirement data validation
   will be completed and how the conversion of the data to NFC will be
   accomplished.

 Recommendation 3 - Brief the TRB on the status of the e-Payroll project on a
   regularly scheduled basis to gain added insight and advice from
   knowledgeable and experienced Department-wide IT managers.



                                     21
                                                    U.S. Department of Labor



Recommendations continued…
To ensure effective management of the project, including meeting
the current deadline of September 30, 2004, we recommend
immediate action on the following:

 Recommendation 4 - In accordance with the DOL Guide to IT Capital
   Investment Management (May 2000), commit to having the OCIO and TRB
   involved in the e-Payroll project and take advantage of the OCIO’s authority
   to leverage DOL’s IT resources to ensure project success.

 Recommendation 5 - Commit to developing an updated project migration
   budget indicating expected costs of migration.

 Recommendation 6 - If these actions cannot be taken within a reasonable
   amount of time, the DOL should reevaluate its ability to achieve the
   September 30, 2004 deadline.




                                     22
                      Attachment
            OCFO’s Response to Draft Report

(Auditor’s Note: Attachments were provided as a part of the
OCFO’s response to the draft report. This documentation is
   voluminous and is not included as part of this report.
